<html>
<title> - CUBA'S GLOBAL NETWORK OF TERRORISM, INTELLIGENCE, AND WARFARE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
     CUBA'S GLOBAL NETWORK OF TERRORISM, INTELLIGENCE, AND WARFARE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2012

                               __________

                           Serial No. 112-158

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
74-240                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Michelle Van Cleave, president, National Security 
  Concepts, Inc. (former National Counterintelligence Executive 
  under President George W. Bush)................................     8
Mr. Christopher Simmons, founding editor, Cuba Confidential 
  (retired Defense Intelligence Agency Supervisory 
  Counterintelligence Officer)...................................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Michelle Van Cleave: Prepared statement............    10
Mr. Christopher Simmons: Prepared statement......................    19

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere:
  Prepared statement.............................................    39
  Letter dated May 17, 2012, to the Honorable Hillary Rodham 
    Clinton from Members of Congress.............................    41


     CUBA'S GLOBAL NETWORK OF TERRORISM, INTELLIGENCE, AND WARFARE

                              ----------                              


                         THURSDAY, MAY 17, 2012

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Connie Mack 
(chairman of the subcommittee) presiding.
    Mr. Mack. The subcommittee will come to order. I first want 
to thank everyone, especially our witnesses for coming today 
and being with us and we look forward to hearing your testimony 
and offering your insight.
    After I recognize myself and the chairman of the full 
committee and the ranking member of this committee for 5 
minutes for opening statements, I will then recognize the 
members of the subcommittee for 2 minutes each for their 
opening statements. We will then proceed directly to hear 
testimony from our distinguished witnesses. The full text of 
the written testimony will be inserted into the record.
    Without objection, members may have 5 days to submit 
statements and questions for the record. After we hear from our 
witnesses, individual members will be recognized for 5 minutes 
each for questions of our witnesses.
    I would now like to recognize the chairman of the full 
committee, my dear friend from Florida, Ms. Ileana Ros-Lehtinen 
for her remarks.
    Ms. Ros-Lehtinen. Well, thank you very much, Chairman Mack. 
Thank you for holding this important hearing to highlight the 
continued threat to U.S. foreign policy priorities and U.S. 
national security interests posed by the Castro regime which is 
a state sponsor of terrorism operating 90 miles from our U.S. 
shores.
    And I'd like to point out and wish him much success that 
our chairman, Connie Mack, will be appearing at the Heritage 
Foundation jointly sponsored by the Victims of Communism 
Memorial Foundation tomorrow at 11 to 12:30 to talk about an 
act of solidarity with the people of Cuba, the struggle for 
freedom continues. So thank you, Mr. Chairman.
    I also would like to thank Ranking Member Engel for his 
continued support for the freedom and democratic aspirations of 
the Cuban people. Mr. Engel has had a lifelong record of 
solidarity with the Cuban people, even when it is difficult for 
him politically back home. He errs on the side of freedom, 
justice, liberty, and respect for human rights. So thank you, 
Mr. Engel, for the political courage that you show every day.
    But Mr. Mack, thank you, because the timing for your 
hearing could not be more appropriate as it raises grave 
questions about the administration's policies toward the Castro 
dictatorship and the threats to our homeland. I'd like to 
focus, in particular, on the appalling open-door policy that 
the administration appears to have adopted for regime officials 
and operatives. We're talking about agents of a State 
Department-designated state sponsor of terrorism, agents of a 
regime that seeks to destabilize our democratic partners in our 
hemisphere, and agents of a dictatorship that has a long-
standing alliance with the Iranian regime. We're talking about 
agents of a regime that has an active espionage operation 
against the United States.
    And one of your witnesses, Mr. Simmons, certainly knows 
about this act of espionage operation. It includes members of 
the Wasp network, convicted for trying to penetrate U.S. 
military installations. It also includes cyber attacks in the 
United States, State Department officials who were turned into 
spies for the Cuban regime and compromised important U.S. 
foreign policy information, and an espionage network that 
included a former senior defense intelligence official who 
provided highly classified information to the Cuban regime 
about U.S. military activities and whose spying may have caused 
the death of a U.S. serviceman operating in Latin America. This 
is serious stuff indeed.
    This is a regime responsible for the murder of three 
American citizens and the U.S. resident in 1996 in the Brothers 
to the Rescue shootdown. So it is incomprehensible and indeed 
appalling to see the Department of State facilitating access to 
our nation for these enemies of the United States. From 
Washington, DC, to San Francisco, Castro operatives want to 
travel to the United States and the State Department will grant 
them a visa.
    Just today, earlier today, news reports confirmed that 
State did, in fact, issue a visa to the daughter of dictator 
Raul Castro, Mariela Castro, to attend a conference in 
California next week. Mariela Castro is a communist regime 
sympathizer. She's part of the regime. She has labeled Cuban 
dissidents as despicable parasites. Those are her words.
    There are also reports that Eusebio Leal tasked by the 
regime to expand tourism to the island under the guise of 
serving as a historian of Havana is also being granted a visa 
to speak at the Brookings Institute tomorrow, Friday. Just a 
few weeks ago, Josefina Vidal-Ferreiro, from the regime's 
Ministry of Foreign Affairs, whose husband was expelled from 
the United States for espionage activities, was also given a 
warm welcome by the Department of State. This disturbing 
pattern that is developing where the doors of the United States 
are opened to officials and activists from state sponsors of 
terrorism countries must not be allowed to continue.
    Three of our colleagues and I sent a letter to Secretary 
Clinton and it was drafted by our colleague Congressman Mario 
Diaz-Balart and signed by the three Cuban-American Members of 
Congress, Albio Sires, David Rivera, and me, saying that this 
is just inconceivable that such visas and such a wonderful 
welcome had been given to these individuals. And in that 
letter, we affirm the intent and the requirements that are in 
U.S. law that the Secretary of State and the Attorney General 
is supposed to enforce and that is a prohibition or a granting, 
on the granting of visas to Cuban regime or Cuban community 
party officials, operatives, or designees. That is the law. And 
now we're faced with the possibility that State may seek to 
thwart congressional oversight over decisions regarding travel 
by Cuban regime officials. State employees and officials have 
indicated that they may stop to honoring a commitment. It's 
been a long-standing agreement with me on behalf of the House 
Foreign Committee requiring notification of State actions 
concerning travel by Cuban regime officials. And this agreement 
was established in 1997 and it was adopted in lieu of 
legislative mandate that I had included in funding legislation 
and was honored by successive administrations except for this 
one.
    So I strongly urge the Department of State to immediately 
reverse its course, consider the threats to our nation's 
security interest posed by the Cuban regime that will be 
discussed later today, right now, by Congressman Mack's 
subcommittee. The administration must stop bending over 
backwards to accommodate the needs, the whims, the requests of 
state sponsors of terrorism that again is located just 90 miles 
from our shores.
    So thank you, Mr. Mack. Thank you Mr. Engel and thank you 
to the witnesses for appearing today and I thank you for 
leadership, sir. And Albio, I talked about you, and discussed 
the letter that we signed.
    Mr. Mack. Thank you very much, Madam Chair. And thank you 
for your leadership, not only in obviously with Cuba, but in 
all foreign affairs. You are a strong advocate for the ideals 
of freedom and democracy and the belief in liberty and so we 
are very fortunate to have you as a chair of the full 
committee. And with that I want to say thank you.
    And also, without objection, would like to enter into the 
record the letter that you mentioned that the four of you had 
authored to Secretary Clinton, so without objection, that will 
be included into the record.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Mack. Thank you. Now I recognize myself for 5 minutes. 
And as I begin, let me just say this: It's shocking to me, 
shocking to me to think that we will give a visa to Raul 
Castro's daughter and at the same time withhold visas from 
Hondurans who fought for their constitution and their freedom. 
I think this just shows how backwards the administration is in 
its dealings with friends and allies in Latin America. So on 
one hand, we allow a visa to a woman that clearly doesn't 
believe in the ideals of freedom and democracy, but we continue 
to turn our back and punish those who stood up in Honduras to 
fight for their freedom, to fight for their democracy, to fight 
for their constitution. Now let me begin.
    It is important to note that when it comes to Cuba, there 
is much more than meets the eye. This is illustrated by the 
Cuban doctors who are shipped around the world to provide 
medical services while spying for the Castros' benefit.
    Recent assertions that U.S. policy toward Cuba is a relic 
of the Cold War would indicate that the Castro regime has 
changed its ways since that time. Today's hearing will reaffirm 
that it is the same regime operating in Cuba today that was 
alive and well during the Cold War.
    Let me be clear, Cuba is no friend to the United States. We 
are enemy number one. And although Cuba is a small island, it 
has a global reach that aims to undermine U.S. interests and 
security through terrorism, intelligence, and irregular 
warfare.
    Cuba has built key relationships that help the island 
expand its reach. Experts have identified that China has, and I 
quote, ``developed a special relationship with Cuba for several 
reasons, ranging from loyalty to intelligence gathering.'' 
However, these same experts explain that the public is often 
kept in the dark on such nefarious activity, because officials 
do not often testify on strategic concerns.
    Yet, the facts remain. The Cuban Intelligence Service ranks 
among the very best in the world and continues to engage in 
espionage operations in the United States. For example in June 
2009, the FBI arrested Kendall Myers, a retired State 
Department official, and his wife, after they spied for the 
Cuban Government for over three decades. The
    DIA analyst, Ana Belen Montes, convicted in 2002 of 
espionage, provided classified U.S. military information to the 
Cuban regime. Meanwhile, the harm this has caused to U.S. 
troops goes unreported.
    Additionally, Cuban intelligence agents purposefully 
provided false leads ``worldwide'' in order to misdirect the 
U.S. investigation of the September 11th terrorist attacks. We 
also know that Cuban intelligence strives to create a 
perception in the United States that Cuba is not a threat, that 
we should normalize relations. Let's not be fooled. Cuba is an 
enemy of the United States that has infiltrated our Government, 
steals classified information, trafficks information around the 
world, and counts Iran, Syria, Venezuela, China, and Russia 
among its best friends. We will never be able to quantify the 
level of harm Cuba has done against our men and women serving 
around the world.
    Despite all of this, the Obama administration is easing 
travel and remittance restrictions, and engaging the Cuban 
regime. President Obama is giving legitimacy to the Castro 
model and allowing negotiations to occur on the regime's terms. 
And once again, the fact that we are going to give a visa to 
Raul Castro's daughter in this model is just astonishing to me.
    This is just another example where U.S. foreign policy is 
backwards in Latin America. The goal of this administration has 
been reach out to our enemies, turn our back on our friends and 
allies. And this approach has hurt our national security. The 
Obama administration has abandoned U.S. citizen Alan Gross in 
prison while making concessions to a corrupt and lying regime.
    At the recent Summit of the Americas where Cuba took center 
stage, those of us in attendance saw firsthand how the Cuban 
regime continues to wield its influence. The Cuban people 
deserve to live in freedom. Once the Castro regime embraces 
freedom, Cuba can be included in the gatherings of free 
societies.
    I have repeatedly asked the Castro regime to start with 
three simple actions. First, release political prisoners 
including Alan Gross. Two, hold free and fair elections, And 
three, permit freedom of speech and a free press. Until the 
Castro regime can take these three steps, there should be no 
negotiations or talk of normalizing relations with Cuba. There 
is nothing holding them back but their own actions.
    I look forward to hearing from our witnesses to shed light 
on the terrorist activity and irregular warfare engaged in by 
the Castro Regime. And I urge everyone to take note of this 
serious and on-going threat as the security of U.S. citizens 
depends upon it.
    Now I'd like to recognize Mr. Engel for 5 minutes for his 
opening statement.
    Mr. Engel. Well, thank you very much, Mr. Chairman, and I 
thank the chair of our full committee, Ileana Ros-Lehtinen, and 
her kind words about me. As you know, I take a back seat to no 
one when it comes to being critical of the Cuban regime. I was 
critical of them when I was chairman of the subcommittee for 4 
years, and as ranking member, both before I was chairman and 
now after. I have been critical of them. I was critical of them 
even before I entered Congress. The bottom line for me is if a 
regime doesn't permit political pluralism or fair and free 
elections or runs their country with terror, I'm opposed to the 
regime. I don't care if it's a right-wing dictatorship or a 
left-wing dictatorship. To me, a dictatorship is despicable.
    And so I think the bulk of what you and our chair had to 
say on Cuba, I certainly agree with it.
    But I must depart from some of the characteristics of the 
Obama administration. I just came back from the Summit of the 
Americas with the President and you, Mr. Chairman, and I and 
others were there. And I saw first hand, the United States 
being virtually the only country standing up to a lot of these 
other regimes that want to normalize everything with Cuba and 
Cuba doesn't have to do anything to get it. I've seen our 
administration, the Obama administration demand of the OAS that 
before Cuba can be admitted it has to adhere to democratic 
principles and Cuba chooses not to do that, so Cuba remains a 
pariah and is not admitted to the OAS.
    I saw the President stand up in Cartagena, saying that Cuba 
knows what it needs to do in order to get invites to future 
Summits of the Americas. So I think Secretary Clinton as well, 
I've had many discussions with her and I think that this 
administration has stood up in behalf of democracy and has been 
critical unequivocally of what's going on in Cuba.
    So I appreciate today's opportunity to discuss the 
situation in Cuba. When you ask most people in the United 
States about Latin America, one of the first things that comes 
to mind is the Castro dictatorship in Cuba. Their oppressive 
role for the past half century is undeniable and I've always 
argued, as I said before, that dictators from the left should 
be thought of no differently than dictators on the right. Those 
who try to romanticize Fidel Castro's rule of Cuba are simply 
fooling themselves. He's oppressed his people, restricted all 
forms of expression, and locked up all opponents of his rule. 
And these are basic violations of the universal declaration of 
human rights in the Inter-American Charter.
    And even though Fidel Castro stepped down from day-to-day 
leadership of Cuba a few years ago, I think it's become very 
clear by now that very little has actually changed in Cuba. 
There clearly remains a profound denial of political pluralism 
there, while fundamental freedoms are still denied to the Cuban 
people who cannot speak freely or live their lives outside of 
the threat of arrest by Cuban security personnel.
    I support the continued embargo on Cuba, but regardless of 
where we stand on U.S. policy toward the island, we all want to 
see democracy in Cuba.
    Mr. Chairman, you and I, as well as other members of the 
subcommittee recently traveled to the Summit of the Americas 
and I was honored to have been able to join President Obama on 
Air Force One and participate as part of the official U.S. 
delegation to the Summit. As usual with these meetings, Cuba 
was a major topic on the agenda, and I remain perplexed by some 
of the countries of the Americas which on the one hand state 
their commitments to the inter-American democratic charter and 
on the other hand believe Cuba should rejoin regional meetings 
and the OAS before it establishes a democratic system and 
protects human rights.
    I say to my friends in the region, I think this is a 
mistake. It tells the Cuban dictatorship that it need not 
change to be accepted throughout the hemisphere. We need to be 
clear with the Castros that only when Cuba comes into 
compliance with the charter, should it be permitted to rejoin 
the bodies of the inter-American system.
    When I spoke at the OAS several weeks ago, I reiterated 
much of what I've just said, not only with Cuba, but with 
Venezuela and Nicaragua and some of the other countries as 
well.
    Now today's hearing is entitled ``Cuba's Global Network of 
Terrorism, Intelligence, and Warfare.'' And I look forward to 
the testimony of our witnesses.
    But Mr. Chairman, I think this topic doesn't necessarily 
get to the heart of the question we need to explore with Cuba. 
I think the key issues on Cuba are different. I think pressing 
for democracy, human rights, a market economy and the choices 
for our country in a post-Castro Cuba seem to be important for 
the subcommittee to consider. I know you and I share similar 
views on that. So I do welcome the opportunity to discuss Cuba. 
I'm not too worried about their international outreach. I think 
during the Cold War they were much more dangerous than they are 
today. I don't diminish how dangerous they are, but I would 
rather concentrate on the utter lack of democracy and the 
oppression that the Cuban regime forces on its people.
    And finally, I don't think we should let a moment go by 
without calling for the release of Alan Gross in prison. Mr. 
Gross did nothing wrong and should be released at once. 
Moreover, his health has deteriorated and, if for no other 
reason, he deserves to be released on humanitarian grounds; 
something which I think the Castros wouldn't know if it hit 
them in the head.
    Mr. Chairman, I have to apologize in advance because I'll 
have to leave a little early from our hearing and my good 
friend, Mr. Sires, will assume the role of ranking member when 
I depart. I yield back. Thank you, Mr. Chairman.
    Mr. Mack. Thank you very much. Mr. Engel, as you say often 
and I agree, you and I do agree on a lot of things and I 
think--not on everything, of course, but on a lot of things. I 
think when it comes to Cuba, we're mostly together. So we 
appreciate the bipartisanship on this issue with you and 
others. And the assertion or the interest in another hearing 
that deals with other issues, we are certainly encouraged and 
would like to do that as well, so let's work together on a 
hearing to do just that because as you say, there are lot of 
important topics when it comes to Cuba.
    I now would like to recognize Mr. Sires for 2 minutes for 
opening statement.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for holding 
this hearing and my colleague, Congressman Engel, we do share 
many issues and many topics here and we certainly correlate on 
a lot of ideas here.
    Probably, I'll start by saying I'm the only one serving in 
this Congress who ever lived in Cuba. I entered this country in 
1962 when I was 11 years old. I still remember very clearly 
when they took all of the books out of the schools and started 
the indoctrination process. And everything was based on getting 
rid of America. I remember when they started teaching how to 
march and they would march at the age of 11 and teach you how 
to take apart and put together a Czechoslovakian machine gun 
because the Americans were the evil empire.
    So having had that experience and how I come to Congress 
and people still think that this is a government that is not a 
dangerous government. There's romanticism with this revolution. 
This is a dictator. Make no questions about it. This is a 
dictator that has over the years put spies in this country.
    We all forget how close we came to nuclear war in 1962. So 
it's amazing to me how people still have this romantic idea 
about what the Cuban Government is. They are brutal. They don't 
exercise any control--observe any human rights whatsoever. You 
look at the people that are in prison. I deal with people that 
were in prison every day in my district. I represent the second 
largest concentration of Cuban-Americans in this country 
outside of Florida. And many of the political prisoners are 
living in my district. And I share firsthand with them their 
experiences, why they were put in jail, why they were given 20 
years, who is in jail now, and the abuses of human rights.
    You know, I was also at the Summit and it was very 
interesting to listen to some of the Presidents. But one 
particular President really opened up my eyes when he said to 
me, ``You know, people know what Cuba is. People know what the 
Castro brothers are.'' But of the 35 people who were 
Presidents, of the 35 Presidents who were there and we met with 
a lot of them, not one of them would say anything about the 
Castro brothers. Why? Because they're afraid that the Castro 
brothers have the tentacles in their countries and they will 
stir up the students. They will stir up some of the 
organizations and before you know it, they have a problem in 
their own country.
    So what do they do? They keep quiet. And this is told to us 
by a President of a country.
    So I'm here to listen to what you have to say. I'm a strong 
supporter of the embargo. I think the embargo has morphed over 
the years and now it's just a matter of putting pressure on 
Castro so we can have free elections, observe human rights and 
expressions in Cuba, which has none. But people say this 
embargo is from the 1960s from the Russian Cuba, but it's 
alright to call it sanctions when we talk about Iran. If we 
changed the name to sanctions in Cuba, I wonder how many people 
would say something, what they would say now.
    So I thank you for being here. I thank the chairman for 
holding this hearing and I look forward to listening to what 
you have to say. Thank you very much.
    Mr. Mack. Thank you very much. I now would like to 
introduce our witnesses. First, the Honorable Michelle Van 
Cleave. Ms. Van Cleave served as the National 
Counterintelligence Executive under President George W. Bush. 
As the head of the U.S. counterintelligence, Ms. Van Cleave was 
responsible for providing strategic direction to and ensuring 
the integration of counterintelligence activities across the 
Federal Government. Currently, Ms. Van Cleave serves as 
president and co-founder of National Security Concepts, Inc. of 
Washington, DC. Thank you very much for being here.
    Second, Mr. Christopher Simmons is the founding editor of 
Cuba Confidential, an online blog and source for news on Cuban 
espionage worldwide. Mr. Simmons is an international authority 
on the Cuban Intelligence Service and retired from the Defense 
Intelligence Agency with over 23 years of experience as a 
counterintelligence officer. Thank you very much for being 
here.
    And now I'd like to recognize Ms. Van Cleave, and you are 
recognized for 5 minutes for your opening comments. Thank you.

  STATEMENT OF THE HONORABLE MICHELLE VAN CLEAVE, PRESIDENT, 
       NATIONAL SECURITY CONCEPTS, INC. (FORMER NATIONAL 
 COUNTERINTELLIGENCE EXECUTIVE UNDER PRESIDENT GEORGE W. BUSH)

    Ms. Van Cleave. Thank you very much, Mr. Chairman. It's a 
pleasure to be here this morning. I have to say it's nice to be 
back in the Rayburn Building. This is where I started my 
Washington career many years ago working for then Congressman 
Jack Kemp, a member of your delegation, Mr. Engel. So it is a 
special pleasure to be here. I do have a written statement for 
the record which has been provided to you. It will be ready for 
inclusion in the record as soon as it's been appropriately 
cleared by my former employer.
    I'd like to speak to that for a moment. I did serve, as you 
mentioned, Mr. Chairman, as the National Counterintelligence 
Executive which is not a position that many people are familiar 
with. So for one brief moment let me tell you how that position 
came about. It was created by the Congress in the 
Counterintelligence Enhancement Act of 2002 upon the 
recognition that foreign intelligence services were exploiting 
seams between the many counterintelligence agencies of the U.S. 
Government, principally the FBI, the CIA, and the military 
services.
    The position was created in the wake of the Aldrich Ames 
espionage case and it has been a real fascinating and I will 
say difficult assignment to try to bring strategic coherence to 
a group of very different agencies with different traditions 
and missions and not a real appreciation of what a strategic 
approach to countering foreign intelligence threats is all 
about and that has been the challenge of the office which now 
is housed in the Office of the Director of National 
Intelligence.
    Foreign intelligence threats to the United States have 
grown over the years and they remain very, very serious. In 
fact, one of the largest asymmetries I might suggest in the 
United States' position and the world is our relative 
vulnerability to espionage, particularly human espionage, 
because our free and open society is really a paradise, if you 
will, for foreign spies who will come here to try to acquire 
information and insights of value to them and to disadvantage 
us. So dealing with those foreign intelligence threats remains 
a very important element of U.S. national security and 
strategy. And I would say that those threats are, in fact, 
growing in an era where the United States is properly consumed 
with concerns over terrorist threats and is involved in wars 
abroad, some of our attention is properly diverted to those 
areas of concern which means that some of the more traditional 
espionage threats against us may receive less attention than 
they have in times past. And so in that window of 
vulnerability, adversaries may see opportunity and so we see, I 
would suggest, increases in that threat.
    Among those increases is the presence of Russian 
intelligence personnel in the United States and active 
throughout the world. People do say properly, well, the Cold 
War is over, things must have changed and certainly that is 
true in many dimensions of our relationships with Russia. But 
one area where that has not changed is the behavior of the 
Russian intelligence services. Someone forgot to tell them that 
the Cold War is over and they're still as active, if not more 
so in the United States than they were at the height of the 
Cold War.
    Many other intelligence services have gone to school, 
literally, on the practices of the KGB. And one of their star 
pupils, of course, was the Cuba intelligence service, the DGI. 
The DGI learned a great deal with the Russians and in fact, has 
an advantage perhaps over any other service in operating in the 
United States: Being so close by, having access, having 
familiarity with our territory, with our people, how things 
work here, they make it much easier to blend into American 
society and to score successes against us.
    Mr. Simmons is going to go into some of those specific 
activities in more detail, but let me mention one to you in 
particular. The damage assessment of Ana Montes was 
accomplished and completed on my watch when I was in office. 
And I can tell you that she is one of the most damaging spies 
the United States has ever found. After 16 years of spying on 
behalf of Cuba, she compromised everything, virtually 
everything that we knew about Cuba and how we operated in Cuba 
and against Cuba. So the Cubans were well aware of everything 
that we knew about them and could use that to their advantage. 
In addition, she was able to influence estimates about Cuba in 
her conversations with colleagues and she also found an 
opportunity to provide information that she acquired to other 
powers. That is maybe the biggest concern about Cuba.
    And I will close with this point and invite other questions 
which is that to the extent that Cuba is able to be successful 
against us, the intelligence insights they acquire here can be 
made available in a market, if you will, a market place of U.S. 
secrets. And those secrets are things that go to the heart of 
what keeps this country free and safe and secure, and our men 
and women in uniform, able to operate in the dangerous places 
where we send them and our public here at home safe. So these 
are very serious matters and I commend you, Mr. Chairman, and 
the subcommittee for holding this hearing today and having this 
discussion. Thank you.
    [The prepared statement of Ms. Van Cleave follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Mack. Thank you. Thank you very much.
    And so Mr. Simmons, you're now recognized for 5 minutes for 
your comments.

  STATEMENT OF MR. CHRISTOPHER SIMMONS, FOUNDING EDITOR, CUBA 
 CONFIDENTIAL (RETIRED DEFENSE INTELLIGENCE AGENCY SUPERVISORY 
                  COUNTERINTELLIGENCE OFFICER)

    Mr. Simmons. Mr. Chairman, members of the subcommittee, 
thank you for inviting me today to testify about the threat 
posed by the Castro regime. I would also like to thank you and 
the committee for the leadership on this key issue, one that 
sadly does not get the attention it deserves among the many 
competing foreign threats and policy priorities.
    Underestimated and misunderstood for much of the last 53 
years, Cuba continues to be a determined and deadly enemy of 
the United States. Its military and intelligence services 
continue their sustained offensive to carry their fight to our 
doorstep, most often using proxies to mitigate the risks posed 
by its reckless operations.
    In many respects, Cuba can be accurately characterized as a 
violent criminal organization masquerading as a government. The 
island's five intelligence services exist not to protect the 
nation, but to ensure the survival of the regime. More 
importantly from the perspective of today's discussion, several 
of these services, as well as the Cuban military, continue to 
operate as profit-making entities. From the trafficking of U.S. 
secrets to running Cuba's tourism industry, this self-serving 
and hypocritical capitalism guarantees a continuation of the 
status quo. The financial livelihood of the mid- and senior 
levels of these organizations is tied to the existence of the 
regime. By incentivizing espionage, especially when fueled by 
the Castro brothers' visceral hatred of the U.S., Havana has 
nurtured an organizational culture prone to extraordinarily 
high risk endeavors. I will address the most important of these 
now.
    Beginning with the intelligence threat. Cuba remains the 
world's sole ``Intelligence Trafficker,'' providing America's 
adversaries with an endless stream of U.S. secrets collected by 
its Signals Intelligence sites, complemented with reporting 
from traditional human spies. The brokering of this 
information, which reportedly now generates hundreds of 
millions of dollars annually is one of the primary revenue 
streams sustaining the regime.
    Cuba's Directorate of Military Intelligence runs one of the 
largest and most sophisticated SIGINT programs in the world. It 
collects against a wide range of U.S. Government and commercial 
communications, as well as the satellite links between the U.S. 
and Europe. Specific targets are said to be all White House 
communications, key military communications nodes, NASA and 
U.S. Air Force communications associated with rocket telemetry 
and commercial services dealing with financial and commodity 
communications. Virtually all U.S.
    U.S. geosynchronous communications satellites are subject 
to DIM targeting.
    Cuba's SIGINT efforts are then merged with the robust Human 
Intelligence capabilities of the Directorate of Intelligence, 
the foreign intelligence wing of the Ministry of the Interior. 
At the height of the Cold War, the DI was ranked the fourth 
best spy service in the world. Now, more than 20 years after 
the crippling loss of its massive Soviet subsidies, the DI is 
still assessed as among the top six services in the world.
    Transitioning to the issue of terrorism, Havana takes a 
three-tier approach to its involvement in terrorism: Regime-
directed, regime-supported, and finally, alliances with state 
sponsors. For regime-directed activities we're looking at 
specifically bona fide acts of terrorism, Cuban Intelligence 
Service targeting of the U.S. war on terrorism, and ``Active 
Measures.''
    Moving on to regime-supported activities, this focuses on 
aid to any of the 40 groups the State Department currently 
lists as Foreign Terrorist Organizations. Cuba currently has 
relations with four of those groups: Hezbollah; the Basque 
Fatherland and Liberty also known as ETA; and two Colombian 
groups, the Revolutionary Armed Forces of Colombia and the
    National Liberation Army. Regarding state sponsors of 
terrorism, that definition is self explanatory and I'll 
continue to move right along.
    In the written testimony before you, I've kept the most 
important aspects of the Cuban threat. You may read those 
details at your leisure. However, I would like to touch on a 
few issues with reference to the Cuban intelligence missions. 
First, Cuban intelligence targeting of U.S. operations in 
Afghanistan. From April 2006 into the weeks leading up to the 
death of Osama bin Laden, Cuba's mission Embassy in Pakistan 
was led by one of their premiere experts in the targeting of 
the United States. This officer who was thrown out of the 
United States for espionage is known as Gustavo Ricardo Machin. 
It is believed that Machin advised the Pakistani Government and 
their intelligence services using information supplied via 
Havana, the massive SIGINT and HUMINT capability we talked 
about earlier and provided much needed context to the 
Pakistanis to help them take their own operations against U.S. 
counterterrorism missions.
    It is important to understand when talking about Cuba's 
collaboration with Pakistan is that the massive penetration of 
Pakistan's directorate for intelligence services intelligence 
also makes it almost a certainty that al-Qaeda received 
information from the Cubans via the Pakistani Government.
    Transitioning to the Cuban intelligence targeting of U.S. 
operations in Iraq. In late 2002 through early 2003, Havana 
provided the Iraqi intelligence with information on U.S. troop 
movements and associated military activities. Cuba's high-risk 
adventurism in this endeavor occurred on the heels of the 
revelations of the American traitor Ana Belen Montes' espionage 
including her efforts to kill U.S. and host nations' soldiers 
during the secret war against leftist guerrillas in El 
Salvador.
    Moving on to post-9/11, Cuba flooded U.S. Embassies with 
walk-ins claiming to provide intelligence on the terrorism 
threat. Of the normal 12 walk-ins we expect from the Cubans 
every year in the first 6 months they sent in almost 20 walk-
ins to tie up U.S. resources. This is a 330 percent increase in 
the normal activities.
    Last, but not least, of the highlighted issues, I'd like to 
address Operation Scorpion which was addressed earlier as a 
shootdown of Brothers to the Rescue. While this mission on 
February 24, 1996 predates the other information I discussed, 
it is important because this act of terrorism involves highest 
levels of the Castro regime. On February 24, 1996, Cuban MiGs 
shot down two U.S. search and rescue aircraft in international 
waters. Code named Operation Scorpion, it was led by General 
Eduardo Delgado Rodriguez, the current head of Cuban 
intelligence. It was personally approved by Fidel Castro and 
supported by Raul Castro, the current President of Cuba. Four 
Americans were murdered in this act of terrorism.
    Shifting to regime-supported activities, last summer you 
were briefed by Ambassador Noriego on his----
    Mr. Mack. Mr. Simmons, if you could try to wrap it up real 
quick so we can have time for questions.
    Mr. Simmons. In conclusion, through its intelligence 
trafficking or own terrorist acts, Cuba has willfully and 
intentionally murdered Americans in the past and it will kill 
again. Furthermore, I believe Havana will covertly facilitate 
attacks on U.S. personnel, installations or interests using 
proxies to create situations in which it cannot be implicated 
as a sponsor. I also suspect Cuba will continue its efforts to 
cripple and degrade U.S. counterterrorism operations. The 
Castro regime sees U.S. inability to respond to its aggression 
as a sign of weakness. As a result, the threat to our national 
security has increased because our failure to act and our 
failure to act only emboldens this dangerous dictatorship.
    [The prepared statement of Mr. Simmons follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Mack. Thank you very much and before we get to 
questions, I'd like to have Mr. Rivera--2 minutes for an 
opening statement.
    Mr. Engel. Mr. Chairman, Mr. Rivera, if I could--I have to 
leave. I have a conflict in another committee. So I again want 
to leave our side in the able hands of Mr. Sires. And I want to 
thank our witnesses for providing extraordinary testimony. 
Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Engel. Mr. Rivera?
    Mr. Rivera. Thank you very much, Mr. Chairman. Thank both 
of you for being here for this important hearing. Thank you for 
holding this hearing, Mr. Chairman. I'm often amazed at just 
how naive we can be with respect to Cuban intelligence, not 
just by the fact that Cuba, of course, is on the list of state 
sponsors of terrorism, but just the entire history of the DGI 
going back decades and decades. We're seeing in recent 
publications by Bryan Latell from the University of Miami how 
for decades Cuban intelligence has been involved in so many 
detrimental activities to U.S. interests from perhaps the 
Kennedy assassination going forward.
    I can recall just over 20 years ago with radio and 
Television Marti, Agent Orion, I remember that case of trying 
to infiltrate the official U.S. broadcast services for the 
Cuban people. Of course the Brothers to the Rescue operation 
that you spoke about, the entire Wasp network, the Ana Belen 
Montes case, which of course, I know Mr. Simmons, you're very 
aware of as well. And you see this over and over and over again 
and you see decisions taken such as allowing Raul Castro's 
daughter to travel to the United States. And it seems like a 
continuing pattern of unilateral concessions that only hardens 
intelligence officers, I would imagine inside Cuba to continue 
to try to penetrate U.S. national security interests which runs 
a great risk to this nature because of the relationships that 
Cuba possesses with many enemies of the United States and 
potential for them to continue sharing this intelligence 
information with those enemies and just augmenting the threat 
to U.S. national security.
    So I look forward to our colloquy, your question and answer 
session. And again, thank you for being here. Thank you, Mr. 
Chairman.
    Mr. Mack. Thank you very much, Mr. Rivera. And now I 
recognize myself for 5 minutes for questions. And I want to, if 
I could, I am going to ask you both the same question and we'll 
start with you, Ms. Van Cleave.
    I said in my opening statement I talked about that although 
Cuba is a small island that it's got a global reach. And I 
think what is fascinating or concerning to me is that many 
would believe that there is not a global reach by Cuba. So I 
wanted to see, one, if you would agree that there is a global 
reach with terrorism and intelligence in irregular warfare and 
if so, if you could maybe highlight that a little bit and then 
I'll also ask Mr. Simmons the same.
    Ms. Van Cleave. Yes, Mr. Chairman, I certainly agree with 
your statement that Cuba has global reach and there are many 
reasons for this. The principal reason is that the activities 
of concern--which is to say terrorist activities, as well as 
trafficking in intelligence and national security secrets--are 
themselves global activities. And what concerns me is that as 
we see foreign powers move more into the Western Hemisphere--an 
increasing Chinese presence, for example, in Latin America, 
certainly Iranian presence in this hemisphere and activities 
here, and for that matter, perhaps a renewed Russian interest 
in this hemisphere--that the Cubans represent an on-the-ground 
highly familiar and capable intelligence service that can 
supply access and insight and support to others who also have 
interests here. So it's the nexus of all of those things that 
gives me pause.
    Mr. Mack. Thank you. Mr. Simmons.
    Mr. Simmons. Yes, I would agree with my esteemed colleague 
regarding Cuba's international reach. I'd like to put it in the 
context of two different complementary tracks, first being the 
SIGINT capability we addressed earlier. To intercept your 
adversaries' communications, satellite communications, the only 
thing necessary is for you to be in a downlink. Cuba is 
perfectly located to be in a downlink for all U.S. 
communications.
    It is, in fact, the only place outside of Fort Meade in the 
Western Hemisphere where large-scale interception of 
communications is possible.
    This ability makes it a lucrative broker for a lot of our 
enemies such as China which in and of itself is impossible for 
them to have their own SIGINT facility in this hemisphere and 
that I would suggest based on evidence that they don't need 
because their friends, the Cubans, run an exceptional 
operation.
    Conversely, we have to put it in an economy of scale. The 
Wasp network, which was referred to earlier, involved a Cuban 
spy operation based in South Florida, but extending all the way 
to New York City and as far west as Louisiana and then also 
supported by Mexico. It involved approximately 42 officers and 
agents and its operating budget was $30,000 a year. I would 
suggest to you there are probably no other intelligence 
services that can run intelligence operations on the cheap as 
well as the Cubans can.
    Mr. Mack. Thank you. I want to get to this issue because a 
couple of times we've talked about how the Castro regime is a 
profit-making center for them and I wondered if Mr. Simmons, if 
you wanted to talk to that. I believe you said hundreds of 
millions of dollars that they're making as a profit, in your 
opinion, do you think that is something that can be disrupted?
    Mr. Simmons. Yes, sir. Several years ago, shortly, we 
believe, after the end of Soviet subsidies, the Castro brothers 
turned over the tourism sector to military intelligence 
services. And now it is run as just that, a profit-making 
center and we know from defectors that these services are 
actually allowed to take earnings and recycle it into their own 
budgets so they are further incentivized in what they do.
    When you look at the tourism industry, virtually every 
facet from a visitor applying for the visa to arriving in Cuba 
on a Cuban airline to the Hotel Nacional and the other hotels, 
it funds nothing but the Cuban intelligence services and 
military and the regime's ability to repress it's own people.
    It also, because of the structure, puts virtually every 
tourist in front of the intelligence services for assessment as 
future agents. I believe the tourism aspect could be crippled 
greatly by changing the rules of the game. The Cubans have no 
respect for America, never had and you see that in the way 
their intelligence services operate. And so taking the ability 
to profit off of tourism would not only significantly hurt the 
intelligence services, but it would have a ripple effect on the 
government's ability to repress its own people.
    Mr. Mack. Thank you. My time has expired. I'd now like to 
recognize Mr. Sires for 5 minutes for questions.
    Mr. Sires. Thank you, Mr. Chairman. How can anybody respect 
us when we take Cuba so lightly? And that is, you know, they 
think they can do anything they want. How many criminals are 
there in Cuba now approximately? Somebody told me over 100, 
including from New Jersey. Joanne Chesselmar, who killed a 
state trooper. Would you have an idea who are seeking sanctions 
in Cuba currently?
    Mr. Simmons. From everything that I have heard, criminals 
are American terrorists in Cuba today.
    Mr. Sires. I know that in New Jersey the Jersey troopers, 
they have a $1 million reward for Joanne Chesselmar for killing 
one of their state troopers on the highway and she fled to Cuba 
as she was being processed.
    Everybody in Washington is concerned about cyber warfare 
and I was just wondering if do you think Cuba is receiving any 
assistance from other countries to establish and develop cyber 
war capabilities against us?
    Ms. Van Cleave. Well, Mr. Sires, I don't have specific 
information on that, but I am happy to speculate. And on the 
basis of my understanding of the extent of cooperation among 
intelligence services have concerned the United States, I would 
be very surprised if there wasn't cooperation in the arena of 
cyber exploitation. So I think one should assume that that kind 
of information exchange and assistance, in fact, takes place.
    Mr. Sires. Mr. Simmons, would you care to comment?
    Mr. Simmons. Yes, sir. Just to add one specific example. 
Transitioning to signals intelligence, by and large, if you're 
able to intercept communications of any sort, you're also able 
to jam the very same communications or signals. And in July 
2003, acting on behalf of Iran, Cuban intelligence jammed the 
transmissions of the National Iranian Television, Voice of 
America, and three other Iran-bound broadcast systems. The 
timing of the jamming coincided with Iran's crackdown on 
dissidents and the commemoration of the historic 1999 student 
uprising.
    Moreover, Skynet, who owned the targeted satellite, was 
quickly able to identify the source of the jamming to a spot 
several miles outside of Havana, subsequently identified as the 
Cuban military intelligence base at Bejucal, head of their 
SIGINT program.
    They then tried to relocate. Prior to Cuba broadcast 
jamming system, the Iranians had jammed a different platform 
from a geosynchronous satellite over Europe and when that was 
shut down that's when they moved to the U.S. communications and 
their Cuban allies were able to shut down those four programs. 
So yes, sir. They can do it at will and in that instance we 
know for a fact it was requested by Tehran.
    Mr. Sires. Did you say the town of Bejucal? What's the name 
of the town, Bejucal?
    Mr. Simmons. Yes, sir.
    Mr. Sires. That's where I was born. As a young boy, I 
remember not being able to go to this hill because there was a 
lot of construction, so everybody assumed there was something 
going on because they basically gutted the mountain. It's not a 
mountain but--we could see the work actually being done from 
the town that I lived in and obviously it was all fenced off. 
Kids couldn't go up there like we used to go, so now you're 
telling me that there is a station there that's a communication 
center?
    Mr. Simmons. Yes, sir. Those fields now grow satellite 
dishes.
    Mr. Sires. This relationship with Iran fascinates me 
because you couldn't have two more different countries, but yet 
there's one common ground and that is destroy America. So I was 
just wondering if you can expand on that relationship with Iran 
and Cuba. And what are their plans? Not what are their plans, 
but obviously, they want to extend to the rest of the Central 
America and South America, their influence. So can you speak a 
little bit about that relationship?
    Mr. Simmons. Yes, sir. In many respects, Cuban foreign 
policy and the influence of the intelligence services can be 
viewed as very pragmatic. And I say that in the sense that when 
it comes to Iran, the Castro brothers embrace the idea of the 
enemy of my enemy is my friend. The relations with Iran 
actually go back to the earliest days of the Iranian 
revolution. Approximately half of the Cuban ambassadors who 
have served in Iran have been intelligence officers.
    Most recently, for about the last 20 years, there's been a 
huge increase in Cuban-Iranian cooperation in biomedical 
technologies. As you're aware, Cuba currently holds over 400 
patents in this arena, many jointly with the Iranians and the 
field of biomedicine is one of those that what is medicine 
today can be a terrorist threat tomorrow. So yes, sir. When it 
comes to a mutual enemy, we are their mutual enemy.
    Mr. Sires. Thank you.
    Mr. Mack. Thank you very much. And I now recognize Mr. 
Rivera for 5 minutes for questions.
    Mr. Rivera. Thank you very much. I'm going to begin 
referencing what I mentioned earlier in terms of the Ana Belen 
Montes case and I'm wondering for both of you, particularly Mr. 
Simmons, if you believe that the DGI penetration of Defense 
Intelligence Agency or National Security Agency and all the 
different intelligence agencies that Ana Belen Montes was 
engaged with, if that penetration ended with Ana Belen Montes?
    Ms. Van Cleave. Mr. Rivera, allow me to begin and I know 
that Mr. Simmons will have more to offer on this point. The 
Montes damage assessment was something that I oversaw when I 
was in office as the National Counterintelligence Executive and 
that damage assessment took several years to compile. We 
learned a great deal about what she had compromised. The damage 
assessment itself remains highly classified. But among the 
things that she was able to provide to the Cubans was insight 
into activities of very high national security sensitivity that 
were of little use to the Cubans, but perhaps of greater use to 
other powers.
    The trade craft of how the Cubans ran her was interesting, 
too, in that she was able to do a lot of reporting and meet 
with Cubans here in Washington, DC, over a period of 16 years. 
That's astounding that they were able to operate that freely 
and I would suggest openly against American society. So what 
she did and the extent of her harm to the United States was 
enormous, but perhaps most disturbing is that they were able to 
recruit her so successfully and penetrate the highest reaches 
of our Cuban analytic community so well.
    Mr. Rivera. My understanding----
    Ms. Van Cleave. I'm going to get to your punch line.
    Mr. Rivera. As far as her sentencing, my understanding is 
she cooperated.
    Ms. Van Cleave. She did.
    Mr. Rivera. So if she cooperated, then I'm wondering just 
how much did she cooperate? Did it lead to any other 
intelligence breaches? Are we done with intelligence breaches 
now that we were done with Ana Belen Montes?
    Ms. Van Cleave. Not even close. Now her cooperation, her 
plea agreement as is often the case with major spies, was 
accepted in order that we might gain understanding of what it 
is that she compromised and how that was done. So we did get a 
great deal from her about that, but my punch line to you is 
that the Cubans are so successful in going against the U.S. 
Government and have been able to do that for such a sustained 
number of years that there is no reason to believe that Montes, 
or for that matter the Myers team at the State Department are 
the last--they are simply the latest, they are the most recent 
that we have been able to talk about publicly.
    Mr. Rivera. And do you think we're trying to ferret out 
whatever remnants there may be post-Myers, post-Montes?
    Ms. Van Cleave. I know we are.
    Mr. Rivera. Mr. Simmons, do you want to add anything?
    Mr. Simmons. Yes, sir. Very quickly. Based on 53 years of 
Cuban intelligence protocols, it would be an anomaly for them 
to have only run one penetration of the Defence Intelligence 
Agency.
    According to their doctrine, there should be three 
penetrations of the Agency. The logic behind that is Cubans are 
very hesitant to run singleton operations because there's no 
way to have feedback on the success or the veracity of the 
information being provided by the agent. In an organization 
like DIA, they would not run three analysts because then 
they're going to get redundant reporting. They would look at 
somebody like Montes, use her to report on the analytic realm 
and then penetrate other sectors of the agency.
    Done correctly, all three agents would end up reporting on 
one another without the awareness that the others are actually 
agents. That according to the Cuban doctrine is the perfect way 
to run an agent operation. So yes, sir. There should be two 
more, at least two more penetrations of DIA. The Cubans have 
had decades to do it so it should not be a surprise.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Mack. Thank you. And if the witnesses won't mind, don't 
mind, I've got a few more questions and I'm sure that my 
colleagues may have other questions, too.
    So I want to talk a little bit with you, Ms. Van Cleave, 
about policy and where--why haven't we done a better job? And 
what kind of recommendations would you have for us for this 
committee as we look at how to deal with the problem with Cuba?
    Ms. Van Cleave. Thank you very much for that question, Mr. 
Chairman. I believe that our vulnerabilities to Cuban espionage 
and indeed to other hostile intelligence services is a very 
serious national security matter. A major reason why we've had 
such losses to espionage in decades past is the way that 
counterintelligence grew up in the United States.
    There was--it began and grew out of the inherent missions 
of the several agencies that execute counterintelligence. The 
FBI is responsible for enforcing our espionage laws within the 
U.S. CIA is responsible for counterintelligence to the extent 
that it needs to protect its own human collection mission 
abroad. And the military services also have their own 
counterintelligence elements that are responsible for force 
protection to look after their ability to execute their 
operations plans and be secure abroad. But what we haven't had 
historically is any entity in the United States that sits back 
and says what are the foreign intelligence threats to the 
United States and what are we going to do about those threats?
    So I bring that down to the level of Cuba and I say here 
you've got a very aggressive, capable and successful 
intelligence service directed against us. It has been our 
practice to deal with these threats, these penetrations, these 
spies on a case-by-case basis as they show up here in the 
United States. What we haven't done is that we have not had a 
strategic look at what should we do as a nation about the 
threat that Cuban intelligence represents to the United States 
and our interests in this hemisphere and elsewhere in the 
world. We do not have a strategic counterintelligence program 
to try to assess and degrade their capabilities against us. And 
that is true with respect to Cuba and every other foreign 
intelligence service that may be of concern.
    So from a policy perspective, I have to say that this 
hearing is fascinating to me because it is so infrequently the 
case, I'm sorry to say, that the intelligence threat presented 
by regional actors is factored into policy discussions. Maybe 
one reason is because understanding that threat and what 
they're doing is usually so very highly classified, so much of 
it, it's difficult to discuss.
    But another reason is it seems that our national security 
policy community by and large is either unfamiliar with or not 
persuaded by the danger that these intelligence activities 
present to the United States. And so I commend you and the 
subcommittee for taking on this question very seriously. I 
would also urge you in your reports or any forward action that 
you might have to include as a question how we might not do a 
better job from a counterintelligence perspective in dealing 
with these threats as part of a larger U.S. policy and strategy 
toward Cuba.
    Mr. Mack. Thank you very much. Mr. Simmons, do you have 
some sort of guidance that you could give the committee?
    Mr. Simmons. Yes, sir. My guidance would be much more 
tactical in nature, if you will. In dealing with the Castro 
brothers, we need to bear in mind that dictators understand one 
thing and that is power. And so a surgical countermeasure to 
Cuban offenses is the best practice. An example that comes to 
mind is going back to the 2003 Cuban intelligence targeting of 
Iraqi Freedom, that May we expelled 14 Cuban diplomats, all of 
whom were intelligence officers. Of the 14, two were husband-
wife teams, so we actually threw out 16 spies which removed 
about a third of their intelligence presence serving under 
diplomatic cover and it crippled Cuban intelligence operations 
in the United States for about 18 months to 2 years.
    Cubans understand focused, surgical--I should say the 
Castro regime understands focused, surgical countermeasures 
like that. And I would suggest that be used as a model to 
protect U.S. interests in the future.
    Mr. Mack. Thank you. It sounds to me that both are good 
ideas. And that one of the things I think we want to try to do 
in this committee is begin to push the envelope a little bit on 
what we can do, what kind of policy positions that we can take 
to understand better and to disrupt what's happening in Cuba 
and elsewhere frankly, but for the purview of this committee 
and Cuba.
    Mr. Sires, you're recognized for 5 minutes for questions.
    Mr. Sires. Yes, Mr. Chairman. Last week, I think it was 
Wolf Blitzer, he had an interview with one of the foreign 
ministers in Cuba and all of a sudden Alan Gross--now is 
getting ready to talk about releasing Alan Gross. I'm just 
wondering, what do you think that's all about? All of a sudden 
after this poor man is in jail, now they're saying there 
possibly could be some talks to release him and talk about 
other things. What do you think that's about? I mean obviously, 
many people here are concerned that there will be a swap, you 
know, for Alan Gross. We're obviously all against it, but I was 
just wondering what's your reaction to a move like that all of 
a sudden? Because they don't make a move unless they think five 
moves ahead. So I was just wondering if you can surmise what 
they might be thinking.
    Mr. Simmons. Yes, sir. I've maintained from the start that 
Alan Gross was grabbed and imprisoned for no reason other than 
to be used as a pawn in a future spy trade. That was my 
position when interviewed by the Miami Herald several days 
after he was initially imprisoned. My position has not changed.
    When we look at the CNN interview you've referenced with 
Josefina Vidal who was thrown out of the United States for 
espionage activities, you may recall that in recent discussions 
actually in the initial discussions regarding access to Alan 
Gross and a subsequent trade, the head of the North American 
Division, Josefina Vidal, her deputy and the consular officer 
handling the Alan Gross situation were all intelligence 
officers thrown out of the United States. This, from its very 
inception, has nothing to do with Alan Gross' activities. He 
was simply in the wrong place at the right time and the Cubans 
needed--they need leverage.
    Based on their disrespect for the United States, I believe 
that they've always known or believed that at some point the 
U.S. would relent and trade for an American because that's what 
we've always done in the past. They have no reason to think we 
won't do the same thing now.
    Mr. Sires. It's amazing to me this information that you 
have that she was thrown out of this country for spying, 
Josefina Vidal. I don't ever remember hearing anybody 
mentioning that when this interview was going on. It's just 
like we have, in this country, the shortest memory of anything, 
about everything. Why doesn't somebody mention when they're 
doing this interview that this is a former spy--a former--yes, 
a spy that was chased out of this country? And all of a sudden 
she's now representing that the Cuban Government wants somehow 
to deal. It's just unfortunate, you know. Thank you, Do you 
have any comments on that issue?
    Ms. Van Cleave. I will confess that I was thinking while 
you were asking the question that gee, I wish that we had a 
definitive answer to exactly what it was they planned to do. 
And the only way you can have a definitive answer is if you've 
got very good intelligence on Cuban discussions and planning 
and thinking. So I come back to the need to have increased 
resources going into our intelligence collection directed 
against the Cubans.
    Mr. Sires. Thank you.
    Mr. Mack. Thank you. Mr. Rivera, you're recognized for 5 
minutes.
    Mr. Rivera. Thank you, Mr. Chairman. We've mentioned a few 
times in the hearing the fact that Cuba is on the list, the 
State Department's list of official sponsors of terrorism and I 
wonder if I could get your opinions regarding intelligence 
activity either being the sole purview of nation states or 
perhaps also activity that other actors engage in such as 
terrorist organizations. And so I wonder how many of the 
terrorist groups or terrorist organizations with which Cuba 
cooperates or perhaps activities on the island or off the 
island, but nexus with Cuba, how many of those organizations 
also engage in intelligence activity against the United States?
    Ms. Van Cleave?
    Ms. Van Cleave. Well, Congressman, you are quite right that 
in traditional concept intelligence activities are practiced by 
many terrorist organizations throughout the world, precisely 
for the purpose of being able to gain the access, the insights, 
the information that they need to be successful in those 
terrorist operations.
    So we have a very careful counterintelligence dimension to 
U.S. counterterrorism activities, for example.
    Cuban involvement with terrorist groups, I would say, would 
be useful potentially to those terrorist groups depending on 
the kinds of insights that they were looking for and what they 
were planning to do.
    I was struck by our conversation earlier about Iran which, 
of course, is a state sponsor of terror, but Iran itself trying 
to carry out a terrorist operation here in the United States. 
You may recall how Iran fielded through apparently a Mexican 
drug cartel an assassination team to try to kill the Saudi 
Ambassador to the United States at a restaurant in Georgetown 
where you've probably been, I've been. And it's amazing that 
Iran would escalate its aggressive actions and be so bold and 
brazen to come right into the U.S. and foster that kind of an 
activity.
    Well, they don't have the insights within the United 
States, the ground expertise to carry that out. They need some 
help from an organization or an entity or people who do know 
the territory here.
    Mr. Rivera. And that's where the organizations come in.
    Ms. Van Cleave. They turn to the Mexican drug cartel, but 
you can speculate about how that kind of activity on--it's an 
example, if you will, of how local expertise can be valuable to 
others.
    Mr. Rivera. So organizations such as whether it be ETA or 
FARC or Hezbollah or Hamas, those types of organizations with 
which the Castro dictatorship maintains relationships. What is 
the activity or intelligence activity against the United States 
from organizations like ETA or FARC or Hezbollah or Hamas?
    Ms. Van Cleave. Well, certainly those organizations carry 
out terrorist operations against friends and allies of the 
United States and could find it very useful, may have 
themselves need for insight into specific national defense 
information, our relations, interactions, knowledge of 
activities that would be of value to them as they carry out 
their terrorist operations.
    I am spinning a web that suggests that espionage is a very 
complex business and that the specific things that may be 
targeted by a source, an asset inside the U.S. Government that 
might be funneled through the DGI, for example, to another 
customer, if you will, abroad provide a rich playing field of 
possibilities.
    Mr. Rivera. Mr. Simmons, do you want to add anything with 
the 30 seconds we have left?
    Mr. Simmons. Yes, sir. Just very quickly. Terrorist groups 
are evolving animals, much like other entities. Cuba has 
historically been tied to well over 40 different terrorist 
groups since the 1960s and their basic protocol is to provide 
them intelligence training first, let them get on their feet so 
they can begin conducting their own operations and then once 
they're successful, migrate over to bilateral operations within 
their own lane of the road, if you will.
    So in essence, it allows Cuba to conduct intelligence 
operations by proxy.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Rivera. Mr. Smith, you're 
recognized for 5 minutes for questions and you're batting clean 
up.
    Mr. Smith. I apologize, Mr. Chairman, for being late and I 
thank you for calling this hearing on this very important and 
very often under-focused-upon problem as it relates to Cuba. We 
do focus, as we ought to, you and all of us on this committee, 
on the human rights which is absolutely a priority, but the 
intelligence and the terror networks and all of that 
collaboration, I applaud you for doing that. I was late because 
I had a hearing of my own on Ukraine and the continued 
incarceration of the former prime minister, Yulia Tymoshenko. 
So that's why I'm late.
    I don't have any questions, but again, I want to thank you 
and I look forward to reading the testimony and I apologize for 
being late.
    Mr. Mack. Thank you very much. I want to thank the 
witnesses. My take away is we have so much more to learn as a 
committee on what we should be looking at from policy position 
on espionage and counterintelligence in Cuba. And frankly, it 
sounds like not just in Cuba, but many other places.
    One of the things that you mentioned, Ms. Van Cleave, when 
you talked about Iran working with drug cartels, we--I and this 
committee are very concerned about the evolving nature of the 
drug cartels into a--these are my words that don't necessarily 
make people happy, but into an insurgency. And that they're 
being used by other terrorist organizations to affect not only 
Mexico, but the United States and other parts of Latin America. 
So I want to thank both of you, Mr. Simmons and Ms. Van Cleave, 
for being here today, for your insight and we look forward to 
continuing to learn more and come up with some way to address 
this problem, so thank you very much and the meeting is 
adjourned.
    Sorry, Mr. Sires.
    Mr. Sires. I also want to thank you, but I also want to 
thank the chairman for holding this hearing. This is a topic 
that is not often spoken about here on the Hill and he's right 
on target to be concerned. So I want to thank you for holding 
this hearing today.
    Mr. Mack. Thank you very much. I always accept thanks. The 
meeting is now adjourned. Thank you.
    [Whereupon, at 4:24 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


          <F-dash>\\a<star><loz> stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


          <F-dash>\\a<star><loz> <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
